Case: 19-17420, 06/30/2020, ID: 11738850, DktEntry: 6, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUN 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DOUGLAS HARRY WARENBACK,
Petitioner-Appellant,
v.

D. W. NEVEN; ATTORNEY GENERAL
FOR THE STATE OF NEVADA,

No.

19-17420

D.C. No. 2:15-cv-01789-APG-VCF
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
Before:

WARDLAW and BENNETT, Circuit Judges.

The request for a certificate of appealability (Docket Entry Nos. 3 & 4) is
denied because appellant has not shown that “jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,484
(2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41
(2012); Miller-El v. Cockrell, 537 U.S, 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Appendix A
9
24

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 1 of 9

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

DOUGLAS HARRY WARENBACK,

4

Case No.: 2:15-cv-01789-APG-VCF

Petitioner
ORDER

5

v.

6 D.W. NEVEN, et al.,
7

Respondents

8
9

This habeas petition is before me for final disposition on the merits (ECF No. 40). As

10 discussed below, the petition is denied.
11

I.

12

On June 19, 2013, petitioner Douglas Harry Warenback pleaded guilty to pandering of a

Procedural History

13 child (exhibit 10).1 The state district court sentenced him to a term of 48 to 120 months in
14 custody. Exh. 13. Judgment of conviction was filed on December 17, 2013. Exh. 15.
15

Warenback did not file a direct appeal. The Supreme Court of Nevada affirmed the

16 denial of his state postconviction habeas corpus petition. Exh. 91. Warenback also filed a
17 petition for writ of certiorari with the Supreme Court of Nevada. Exh. 70. That court declined to
18 exercise original jurisdiction and dismissed the petition for writ of certiorari without considering
19 it on the merits; Exh. 74.
20
21
22
23

i

Exhibits referenced in this order are exhibits to the respondents’ motion to dismiss, ECF No.
21, and are found at ECF Nos. 22-26.

Appendix B

10.
25

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 2 of 9

1

Warenback also filed two petitions for writ of mandamus. Exhs. 71, 87. The Supreme

2 Court of Nevada declined to exercise original jurisdiction over either petition in an order dated
3 July 23, 2015. Exh. 101.
4

Warenback filed a second state postconviction petition on September 14, 2015. Exh. 108.

5 The Nevada Court of Appeals affirmed the denial of that petition. Exh. 127.
6

Warenback initiated this pro se federal habeas action on September 13, 2015 (ECF No.

7 11). I ultimately granted the respondents’ motion to dismiss three grounds in the amended
8 petition. ECF No. 34. The respondents have now answered the remaining ground of the
9 petition—a claim that Warenback’s counsel rendered ineffective assistance at sentencing—and
10 Warenback replied. ECF Nos. 79, 80.
11

II.

LEGAL STANDARDS

12

a. Antiterrorism and Effective Death Penalty Act (AEDPA)

13

The Antiterrorism and Effective Death Penalty Act (AEDPA) provides the legal

14 standards for my consideration of the petition:
15
16

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim —

17
18

resulted in a decision that was contrary to, or involved an
(1)
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

19
20

(2)
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.

21
22 28 U.S.C. § 2254(d). The AEDPA “modified a federal habeas court’s role in reviewing state
23 prisoner applications in order to prevent federal habeas ‘retrials’ and to ensure that state-court

2

11.
26

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 3 of 9

1 convictions are given effect to the extent possible under law.” Bell v. Cone, 535 U.S. 685, 6932 694 (2002). My ability to grant a writ is limited to cases where “there is no possibility fair3 minded jurists could disagree that the state court’s decision conflicts with [Supreme Court]
4 precedents.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The Supreme Court has
5 emphasized “that even a strong case for relief does not mean the state court’s contrary
6 conclusion was unreasonable.” Id. (citing Lockyer v. Andrade, 538 U.S. 63, 75 (2003)); see also
)

7 Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing the AEDPA standard as “a difficult to
8 meet and highly deferential standard for evaluating state-court rulings, which demands that state9 court decisions be given the benefit of the doubt”) (internal quotation marks and citations
10 omitted).
11

A state court decision is contrary to clearly established Supreme Court precedent, within

12 the meaning of 28 U.S.C. § 2254, “if the state court applies a rule that contradicts the governing
13 law set forth in [the Supreme Court’s] cases” or “if the state court confronts a set of facts that are
14 materially indistinguishable from a decision of [the Supreme Court] and nevertheless arrives at a
15 result different from [the Supreme Court’s] precedent.” Lockyer, 538 U.S. at 73 (quoting
16 Williams v. Taylor, 529 U.S. 362,405-06 (2000), and citing Bell, 535 U.S. at 694.
17

A state court decision is an unreasonable application of clearly established Supreme

18 Court precedent, within the meaning of 28 U.S.C. § 2254(d), “if the state court identifies the
19 correct governing legal principle from [the Supreme Court’s] decisions but unreasonably applies
20 that principle to the facts of the prisoner’s case.” Lockyer, 538 U.S. at 74 (quoting Williams, 529
21 U.S. at 413). The “unreasonable application” clause requires the state court decision to be more
22 than incorrect or erroneous; the state court’s application of clearly established law must be
23 objectively unreasonable. Id. (quoting Williams, 529 U.S. at 409).

3

12.
27

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 4 of 9

1

To the extent that the state court’s factual findings are challenged, the “unreasonable

2 determination of fact” clause of § 2254(d)(2) controls on federal habeas review. E.g., Lambert v.
3 Blodgett, 393 F.3d 943,972 (9th Cir. 2004). This clause requires that the federal courts “must be
4 particularly deferential” to state court factual determinations. Id. The governing standard is not
5 satisfied by a showing merely that the state court finding was “clearly erroneous.” 393 F.3d at
6 973. Rather, AEDPA requires substantially more deference:

7
8
9

[I]n concluding that a state-court finding is unsupported by substantial evidence in
the state-court record, it is not enough that we would reverse in similar
circumstances if this were an appeal from a district court decision. Rather, we
must be convinced that an appellate panel, applying the normal standards of
appellate review, could not reasonably conclude that the finding is supported by
the record.

10
11 Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004); see also Lambert, 393 F.3d at
12 972.
13

Under 28 U.S.C. § 2254(e)(1), state court factual findings are presumed to be

14 correct unless rebutted by clear and convincing evidence. The petitioner bears the burden
15 of proving by a preponderance of the evidence that he is entitled to habeas relief. Cullen,
16 563 U.S. at 181.
17
18

b. Ineffective Assistance of Counsel
Ineffective assistance of counsel (IAC) claims are governed by the two-part test

19 announced in Strickland v. Washington, 466 U.S. 668 (1984). In Strickland, the Supreme Court

20 held that a petitioner claiming ineffective assistance of counsel has the burden of demonstrating
21 that (1) the attorney made errors so serious that he or she was not functioning as the “counsel”

22 guaranteed by the Sixth Amendment, and (2) that the deficient performance prejudiced the
23 defense. Id. at 687. To establish ineffectiveness, the defendant must show that counsel’s

4

13.
28
c

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 5 of 9

1 representation fell below an objective standard of reasonableness. Id. To establish prejudice, the
2 defendant must show that there is a reasonable probability that, but for counsel’s unprofessional
3 errors, the result of the proceeding would have been different. Id. A reasonable probability is
4 “probability sufficient to undermine confidence in the outcome.” Id. at 694. Additionally, any
5 review of the attorney’s performance must be “highly deferential” and must adopt counsel’s
6 perspective at the time of the challenged conduct, in order to avoid the distorting effects of
7 hindsight. Id. at 689. It is the petitioner’s burden to overcome the presumption that counsel’s
8 actions might be considered sound trial strategy. Id.
9

Ineffective assistance of counsel under Strickland requires a showing of deficient

10 performance of counsel resulting in prejudice, “with performance being measured against an
11 objective standard of reasonableness,.. . under prevailing professional norms.” Rompilla v.
12 Beard, 545 U.S. 374, 380 (2005) (internal quotations and citations omitted). When the
13 ineffective assistance of counsel claim is based on a challenge to a guilty plea, the Strickland
14 prejudice prong requires a petitioner to demonstrate “that there is a reasonable probability that,
15 but for counsel’s errors, he would not have pleaded guilty and would have insisted on going to
16 trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985).
17

If the state court has already rejected an ineffective assistance claim, a federal habeas

18 court may only grant relief if that decision was contrary to, or an unreasonable application of, the
19 Strickland standard. See Yarborough v. Gentry, 540 U.S. 1, 5 (2003). There is a strong
20 presumption that counsel’s conduct falls within the wide range of reasonable professional
21 assistance. Id.
22

The Supreme Court of the United States has described federal review of a state supreme

23 court’s decision on a claim of ineffective assistance of counsel as “doubly deferential.” Cullen,

5

14.
29

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 6 of 9

1 563 U.S. at 190 (quoting Knowles v. Mirzayance, 129 S.Ct. 1411, 1413 (2009)). The Supreme
2 Court emphasized that: “We take a ‘highly deferential’ look at counsel’s performance . . .
3 through the ‘deferential lens of § 2254(d).’” Id. at 1403 (internal citations omitted). Moreover,
4 federal habeas review of an ineffective assistance of counsel claim is limited to the record before
5 the state court that adjudicated the claim on the merits. Cullen, 563 U.S. at 181-84. The Supreme
6 Court has specifically reaffirmed the extensive deference owed to a state court's decision
7 regarding claims of ineffective assistance of counsel:
8
9
10
11
12

Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult. The standards created by Strickland and
§ 2254(d) are both “highly deferential,” ... and when the two apply in tandem,
review is “doubly” so .... The Strickland standard is a general one, so the range
of reasonable applications is substantial.... Federal habeas courts must guard
against the danger of equating unreasonableness under Strickland with
unreasonableness under § 2254(d). When § 2254(d) applies, the question is
whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.

13 Harrington, 562 U.S. at 105 (citations omitted). “A court considering a claim of ineffective
14 assistance of counsel must apply a ‘strong presumption’ that counsel’s representation was within
15 the ‘wide range’ of reasonable professional assistance.” Id. at 104 (quoting Strickland, 466 U.S.
16 at 689). “The question is whether an attorney’s representation amounted to incompetence under
17 prevailing professional norms, not whether it deviated from best practices or most common
18 custom.” Id. (internal quotations and citations omitted).
19

III.

20

Ground 3

21

Warenback asserts that his counsel was ineffective at sentencing when counsel failed to

Instant Petition

22 cross-examine the victim’s mother. ECF No. 40, pp. 7. He argues that his counsel waived his
23 right to cross-examine without his consent.

15.
6
30

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 7 of 9

1

The sentencing transcript reflects that the victim’s mother made an impact statement.

2 Exh. 13, pp. 19-24. Several voicemail messages that Warenback left for the mother right before
3 and after he was arrested were played. Warenback had transported the 16-year-old victim from
4 California to Nevada. He called the victim’s mother multiple times in an attempt to make an
5 “agreement” whereby the mother would sign an affidavit stating that she allowed him to take her
6 daughter out of state, and in exchange Warenback would agree to never see the victim again.
7 Warenback had a previous conviction related to possession of child pornography, which the
8 mother referenced: “He is on child pornography and probation since 2011.” Id. at 24. The court
9 then asked the mother to focus on the impact Warenback’s actions had on her family. The
10 mother concluded that she hoped for a sentence of life in prison. The court asked defense
11 counsel if he wanted to cross-examine the mother, and counsel indicated that he did not have any
12 questions. Id.
13

At the beginning of the sentencing hearing and before the victim’s mother testified, the

14 State discussed the prior child pornography conviction. Id. at 2-3. Warenback also addressed the
15 court. Id. at 4-12. As the judge pronounced the sentence, he told Warenback:
16
17
18
19
20

[Y]our actions have consequences. Your history is very concerning to me.
Your lack of empathy is equally if not more troubling because I look forward
some of the functions or things I have to think about is whether or not you’re an
ongoing, continuing threat to the community based upon the facts of the case,
your history and everything I’ve heard. And, frankly, you don’t demonstrate
empathy to me. I think you’re more concerned about the fact that you find
yourself in custody as a function of this action and your frustrations with that.
I’m troubled by the phone calls and the continuing conduct that you had with the
mother.

21 Id. at 24-25. The judge sentenced Warenback at the top of the recommended range to a term of
22 48 to 120 months. Id. at 25.
23

The Nevada Court of Appeals affirmed the denial of this IAC claim:

7

16.
31

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 8 of 9

1

2
3
4
5
6

Warenback claimed that counsel was ineffective for waiving, without
Warenback’s consent, his right to cross-examine the victim’s mother at
sentencing regarding the text messages he sent her and her statement that he had
been previously convicted or committed other bad acts. Warenback failed to
demonstrate that counsel was deficient or that he was prejudiced. With respect to
the text messages, this testimony did not trigger the limited circumstances under
which cross-examination should be permitted. See Buschauer v. State, 804 P.2d
1046, 1048 (Nev. 1990). With respect to the prior bad acts, Warenback failed to
demonstrate a reasonable probability of a different outcome at sentencing had
counsel cross-examined the victim’s mother regarding the prior bad acts. We
note that the reference to these prior bad acts was only a small portion of her
statement. Therefore, the district court did not err in denying this claim.

7
8 Exh. 91, p. 3.
9

Warenback has not demonstrated that he is entitled to federal habeas relief. Before the

10 victim’s mother testified, the State had already described the prior child pornography conviction.
11 Further, the mother made only a brief reference to the prior case. Nor does Warenback explain
12 how there was a reasonable probability of a different outcome at sentencing had his counsel
13 cross-examined the mother regarding the voicemails. The court stated that Warenback’s lack of
14 remorse or empathy weighed heavily in its sentencing determination. Warenback has not
15 demonstrated that the decision affirming the denial of this claim was contrary to, or involved an
16 unreasonable application of, Strickland, or was based on an unreasonable determination of the
17 facts in light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d). I deny
18 federal ground 3.
19

The petition, therefore, is denied it is entirety.

20

IV.

21

This is a final order adverse to the petitioner. Rule 11 of the Rules Governing Section

Certificate of Appealability

22 2254 Cases requires me to issue or deny a certificate of appealability (COA). I have evaluated
23

17.
8
32

Case 2:15-cv-01789-APG-VCF Document 84 Filed 11/26/19 Page 9 of 9

1 the claims for suitability for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v.
2 Calderon, 281 F.3d 851, 864-65 (9th Cir. 2002).
3

A COA may issue only when the petitioner “has made a substantial showing of the denial

4 of a constitutional right.” 28 U.S.C. § 2253(c)(2). With respect to claims rejected on the merits,
5 a petitioner “must demonstrate that reasonable jurists would find the district court’s assessment
6 of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
7 (citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). For procedural rulings, a COA will
8 issue only if reasonable jurists could debate (1) whether the petition states a valid claim of the
9 denial of a constitutional right and (2) whether the court’s procedural ruling was correct. Id.
10

None of my rulings meets the Slack standard. I therefore decline to issue a certificate of

11 appealability for my resolution of Warenback’s claim.
12

V.

13

I THEREFORE ORDER that the first-amended petition (ECF No. 40) is DENIED.

14

I FURTHER ORDER that a certificate of appealability is DENIED.

15

I FURTHER ORDER the Clerk to enter judgment accordingly and close this case.

16

Dated: November 26, 2019.

Conclusion

17
18

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

19
20
21
22

18.

23

9
33

Case 2:15-cv-01789-APG-VCF Document 77 Filed 05/04/18 Page 1 of 2

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

★*★

4

DOUGLAS HARRY WARENBACK,

5

Case No. 2:15-cv-01789-APG-VCF

Petitioner,

ORDER

v.
6
D.W. NEVEN, et al.,
7
Respondents.

8
9

This pro se habeas matter under 28 U.S.C. § 2254 comes before the court on

10

petitioner Douglas Harry Warenback’s motion for leave to file an amended petition. ECF

11

No. 69. Respondents opposed and Warenback replied. ECF Nos. 72, 75. I deny

12

Warenback’s motion.

13

On February 12, 2018, this court granted respondents’ motion and dismissed

14

ground 1 as procedurally barred, ground 2 as noncognizable in federal habeas corpus,

15

and ground 4 as untimely. ECF No. 68. On February 23, 2018, Warenback filed a

16

motion for leave to file an amended petition. ECF No. 69. Warenback states that

17

respondents’ exhibits filed June 27, 2016 contained the motion to withdraw due to

18

conflict that his counsel filed on December 3, 2012. The 2012 state-court motion

19

indicated that the public defender could not represent Warenback because his office

20

was representing the victim in Warenback’s case in a juvenile criminal case.

21

Warenback acknowledges in his motion to amend that that he was notified at the time

22

the motion was filed that there was a conflict of interest because the public defender

23

represented the victim in another case. However, he states that he never saw the

24

motion itself and that no one mentioned that there was a juvenile criminal case against

25

the victim. He apparently argues that he may not have entered into the guilty plea if he

26

had known about the juvenile case against the victim.

27

First, Warenback’s claim of ignorance of the nature of the conflict appears to be

28

belied by the record. The deputy public defender stated in his declaration in support of
1

Appendix C 19.

■4

Case 2:15-cv-01789-APG-VCF Document 77 Filed 05/04/18 Page 2 of 2

1

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

the 2012 motion that the public defender was engaged in an ongoing representation of
the victim in another case. ECF No. 22-3. Warenback acknowledges that he was
notified of the motion at the time it was filed. Moreover, even assuming, arguendo, that
Warenback was unaware of the victim’s criminal case in 2012, he acknowledges that he
became aware of it when respondents filed a copy of the motion as an exhibit to their
first motion to dismiss, those exhibits were filed in June, 2016, and Warenback offers
no explanation whatsoever as to why he waited almost two years to try to add a claim
based on the existence of the juvenile criminal case. He fails to demonstrate that the
factual basis for this claim could not have been discovered earlier through due
diligence. 28 U.S.C. § 2244(d)(1)(D).
IT IS THEREFORE ORDERED that petitioner’s motion for leave to file an
amended petition (ECF No. 69) is DENIED:
IT IS FURTHER ORDERED that petitioner’s motion for certificate of appealability
(ECF No. 71) is DENIED.
IT IS FURTHER ORDERED that respondents’ motion to extend time to respond
to the motion for leave to amend (ECF No. 70) is GRANTED nunc pro tunc.
IT IS FURTHER ORDERED that respondents’ motion for extension of time to file
their answer to the petition (ECF No. 73) is GRANTED. Respondents shall file their
answer within forty-five (45) days of the date of this order.

20
DATED: 4 May 2018.
21
22
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

23
24
25
26
27
28
2

20.
•5

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 1 of 7

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

* * *

4

DOUGLAS HARRY WARENBACK,

5

Case No. 2:15-cv-01789-APG-VCF

Petitioner,

ORDER

v.
6

(ECF Nos. 42,61,62, 63, 66)
D.W. NEVEN, et al.,

7
Respondents.

8

This pro se habeas matter under 28 U.S.C. § 2254 comes before the court on respondents’

9
10

motion to dismiss petitioner Douglas Harry Warenback’s amended petition (ECF No. 42).

11

Warenback opposed (ECF No. 43), and respondents replied (ECF No. 50).

12

I.

13

On June 19, 2013, Warenback pleaded guilty to pandering of a child (exhibit 10).1 The state

14

district court sentenced him to a term of 48 to 120 months. Exh. 13. Judgment of conviction was

15

filed on December 17,2013. Exh. 15.

Procedural History and Background

Warenback did not file a direct appeal. The Supreme Court of Nevada affirmed the denial of

16
17

his state postconviction habeas corpus petition on April 14,2015, and remittitur issued on May

18

11, 2015. Exhs. 91,93. Warenback also filed a petition for writ of certiorari with the Supreme

19

Court of Nevada. Exhs. 70. That court declined to exercise original jurisdiction and dismissed

20

the petition for writ of certiorari without considering it on the merits. Exh. 74.

21

He also filed two petitions for writ of mandamus. Exhs. 71,87. The Supreme Court of

22

Nevada declined to exercise original jurisdiction over either petition in an order dated July 23,

23

2015. Exh. 101

24

Warenback filed a second state postconviction petition on September 14, 2015. Exh. 108.

25

The Nevada Court of Appeals affirmed the denial of the petition on May 18,2016. Exh. 127.

26
27
28

i

Exhibits referenced in this order are exhibits to respondents’ first motion to dismiss (ECF No.
21) and are found at ECF Nos. 22-26.
1

Appendix D 21.

■;6

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 2 of 7

1

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Meanwhile, Warenback dispatched his federal petition for mailing on September 13, 2015.
ECF No. 11. Respondents now argue that the court should dismiss several grounds of the
amended petition. ECF No. 42.
II.

Legal Standards & Analysis
a. Relation Back

Respondents argue that ground 4 does not relate back to a timely-filed petition and should
thus be dismissed as untimely. ECF No. 42, pp. 5-8. A new claim in an amended petition that is
filed after the expiration of the Antiterrorism and Effective Death Penalty Act (“AEDPA”) oneyear limitation period will be timely only if the new claim relates back to a claim in a timelyfiled pleading under Rule 15(c) of the Federal Rules of Civil Procedure; the claim must arise out
of “the same conduct, transaction or occurrence” as a claim in the timely pleading. Mayle v.
Felix, 545 U.S. 644 (2005). In Mayle, the United States Supreme Court held that habeas claims
in an amended petition do not arise out of “the same conduct, transaction or occurrence” as
claims in the original petition merely because the claims all challenge the same trial, conviction
or sentence. 545 U.S. at 655-64. Rather, Rule 15(c) permits relation back of habeas claims
asserted in an amended petition “only when the claims added by amendment arise from the same
core facts as the timely filed claims, and not when the new claims depend upon events separate
in ‘both time and type’ from the originally raised episodes.” 545 U.S. at 657. In this regard, the
reviewing court looks to “the existence of a common ‘core of operative facts’ uniting the original
and newly asserted claims.” A claim that merely adds “a new legal theory tied to the same
operative facts as those initially alleged” will relate back and be timely. 545 U.S. at 659 and n.5;
Ha Van Nguyen v. Curry, 736 F.3d 1287, 1297 (9th Cir. 2013).
Here, Warenback timely dispatched his original federal habeas petition for filing on
September 13, 2015. ECF No. 11, p. 1. According to respondents, the AEDPA one-year
limitation period expired on or about June 1,2016. Warenback believes the limitation period
expired in November 2015. ECF No. 43, p. 5. In any event, the parties do not dispute that the
statute of limitation had expired when Warenback dispatched his amended petition for mailing

28
2

22.
■7

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 3 of 7

1
2

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

about March 7, 2017. See ECF No. 42, p. 6; ECF No. 43, p. 5. Accordingly, the claims in the
amended petition must relate back to Warenback’s original petition in order to be deemed timely.
Ground 4
Warenback claims in the amended petition that his counsel was ineffective in violation of his
Sixth Amendment rights because counsel waived Warenback’s rights at the guilty plea hearing
without Warenback’s express consent. ECF No. 40, p. 9. Respondents argue that ground 4 does
not relate back to the amended petition. ECF No. 42, pp. 5-8. After reviewing Warenback’s
original petition and the arguments in his opposition, I find that ground 4 of the amended petition
differs in time and type from the claims that raised in the original petition. Ground 4 is
dismissed as untimely.
b. Guilty Plea and Federally Cognizable Claims
In Tollettv. Henderson, 411 U.S. 258, 267 (1973), the United States Supreme Court held that
“when a criminal defendant has solemnly admitted in open court that he is in fact guilty of the
offense with which he is charged, he may not thereafter raise independent claims relating to the
deprivation of constitutional rights that occurred prior to the entry of the guilty plea.” A
petitioner may attack only the voluntary and intelligent character of the guilty plea. Id. When a
petitioner has entered a guilty plea then subsequently seeks to claim his counsel rendered
ineffective assistance, such claim is limited to the allegation that defense counsel was ineffective
in advising petitioner to plead guilty. Fairbank v. Ayers, 650 F.3d 1243, 1254-1255 (9th
Cir.2011) (citing Tollett, 411 U.S. at 266-267, and explaining that because a guilty plea
precludes a claim of constitutional violations prior to the plea, petitioner’s sole avenue: for relief
is demonstrating that advice of counsel to plead guilty was deficient); Lambert v. Blodgett, 393
F.3d 943, 979 (9th Cir.2004).
Ground 1
Warenback asserts that the pretrial transcript of a voicemail and the version of the voicemail
played at sentencing do not match and the “tampered transcript” at sentencing violated his
Fourteenth Amendment due process rights. ECF No. 40, p. 3. Respondents argue first that

28
3

23.
:8

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 4 of 7

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

ground 1 is barred by Tollett. ECF No. 42, pp. 3-4. However, Warenback claims that he did not
know of the discrepancies until his sentencing hearing and he appears to allege that the voicemail
played at sentencing was less incriminating than the pretrial transcript of the voicemail. ECF No.
40, p. 3. Thus, ground 1 challenges the voluntary and intelligent nature of his plea and is not
subject to dismissal under Tollett.
Ground 2
Warenback contends that his counsel rendered ineffective assistance because he failed to file
a motion for an evidentiary hearing when a detective committed peijury with respect to the arrest
warrant, rendering the warrant invalid ECF No. 40, p. 5. Respondents are correct that this is a
claim of a pre-plea constitutional violation that is barred from federal habeas review under
Tollett. Accordingly, ground 2 is dismissed,
c. Procedural Default
The AEDPA provides that a court may grant habeas relief if the relevant state court decision
was either: (1) contrary to clearly established federal law as determined by the Supreme Court;
or (2) involved an unreasonable application of clearly established federal law as determined by
the Supreme Court. 28 U.S.C. § 2254(d),
“Procedural default” refers to the situation where a petitioner in fact presented a claim to the
state court but the state court disposed of the claim on procedural grounds instead of on the
merits. Coleman v. Thompson, 501 U.S. 722, 730-31 (1991). A federal court will not review a
claim for habeas corpus relief if the decision of the state court regarding that claim rested on a
state law ground that is independent of the federal question and adequate to support the
judgment. Id. The Coleman Court explained the effect of a procedural default:

23
24
25
26

In all cases in which a state prisoner has defaulted his federal claims in state
court pursuant to an Independent and adequate state procedural rule, federal
habeas review of the claims is barred unless the prisoner can demonstrate cause
for the default and actual prejudice as a result of the alleged violation of federal
law, or demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.

27
28
4

24.
:;9

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 5 of 7

1
2
3
4

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Id. at 750; see also Murray v. Carrier, All U.S. 478, 485 (1986). The procedural default
doctrine ensures that the state’s interest in correcting its own mistakes is respected in all federal
habeas cases. See Koerner v. Grigas, 328 F.3d 1039, 1046 (9th Cir. 2003).
To demonstrate cause for a procedural default, the petitioner must be able to “show that some
objective factor external to the defense impeded” his efforts to comply with the state procedural
rule. Murray, All U.S. at 488 (emphasis added). For cause to exist, the external impediment
must have prevented the petitioner from raising the claim. See McCleskey v. Zant, 499 U.S. 467,
497 (1991). To demonstrate actual prejudice on the basis of his or her claims, petitioner must
demonstrate that the alleged errors so infected the trial or entry of plea that the resulting
conviction violated due process. See United States v. Frady, 456 U.S. 152, 169 (1982).
To demonstrate a fundamental miscarriage of justice, a petitioner must show the
constitutional error complained of probably resulted in the conviction of an actually innocent
person. Boyd v. Thompson, 147 F.3d 1124, 1127 (9th Cir. 1998). ‘“[Ajctual innocence’ means
factual innocence, not mere legal insufficiency.” Bousley v. United States, 523 U.S. 614, 623
(1998). This is a narrow exception, and it is reserved for extraordinary cases only. Sawyer v.
Whitley, 505 U.S. 333, 340 (1992). Bare allegations unsupplemented by evidence do not tend to
establish actual innocence sufficient to overcome a procedural default. Thomas v. Goldsmith, 979

F.2d 746, 750 (9th Cir. 1992).
Ground 1
Respondents argue that ground 1—in which Warenback asserts discrepancies in transcripts
of a voicemail he left for the victim’s mother—is procedurally barred. ECF No. 42, p. 2.
Warenback presented this claim to the Nevada Court of Appeals in his appeal of the denial of his
second state postconviction petition. Exh. 127. The Nevada Court of Appeals affirmed the denial
of the petition as procedurally barred because it was untimely and successive. Id:, NRS §
34.726(1); NRS § 34.810(2), The Ninth Circuit Court of Appeals has held that, at least in noncapital cases, application of the procedural bar at issue in this case (N.R.S. § 34.810) is an
independent and adequate state ground. Vang v. Nevada, 329 F.3d 1069, 1073-75 (9th Cir.

28
5

25.

'0

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 6 of 7

1
2

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

2003); see also Bargas v. Burns, 179 F.3d 1207, 1210-12 (9th Cir. 1999). Therefore, the Nevada
Court of Appeal’s determination that federal ground 1 was procedurally barred under N.R.S.
§ 34.810 was an independent and adequate ground to affirm the denial of the claim in the state
petition.
Warenback bears the burden of proving both good cause for his failure to present the claim
and actual prejudice. Coleman, 501 U.S. at 750; see also Murray, All U.S. at 485. In his
opposition to the motion to dismiss, Warenback states that the state district court denied his
motion for a copy of the sentencing transcript, and he argues that this was an external
impediment that prevented him from raising the claim earlier. ECF No. 43, pp. 1-2. Warenback
fails to set forth any specific allegations regarding when he allegedly learned of the
discrepancies. Moreover, even assuming without deciding that Warenback could demonstrate
cause, he has failed to demonstrate actual prejudice. He points to his second state postconviction
petition, in which he included a chart that allegedly compared the earlier transcript of the
voicemail with the sentencing transcript that contains the voicemail. Exh. 108, p. 13. First, the
alleged discrepancies are extremely minor and do not relate to Warenback’s culpability. Second,
Warenback acknowledged that he does not know which transcript version is accurate. Id. He
simply has not demonstrated that any discrepancy so infected his guilty plea as to violate federal
due process. Ground 1, therefore, is dismissed as procedurally barred.
III.

Petitioner’s Motions to Amend/Supplement

Finally, Warenback continues to file numerous motions in this case. Pending are the
following: motion to amend the petition (ECF No. 61), motion to transfer petition (ECF No. 62),
motion for leave to file supplement to motion to amend petition (ECF No. 63), and a second
motion for leave to amend the petition (ECF No. 66). Despite how Warenback has styled the
various motions, in each motion he seeks to file an amended petition or supplement. He wants to
add a claim that his sentence improperly included the requirement that he register as a sex
offender in violation of his federal due process rights. Warenback argues that under the relevant
Nevada statute, the offense to which he pleaded guilty did not require the imposition of a term of

28
6

26.
^1

Case 2:15-cv-01789-APG-VCF Document 68 Filed 02/12/18 Page 7 of 7

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

lifetime supervision. Respondents point out that this is purely a question of Nevada state law
and is not cognizable in federal habeas proceedings. See, e.g., Swarthout v. Cooke, 562 U S. 216,
219 (2011); Estelle v. McGuire, 502 U.S. 62,67 (1991). Accordingly, the motions to amend the
petition, as well as all other pending motions, are denied. Filing serial motions seeking the same
relief only delays the resolution of the petition.
IV.

Conclusion
IT IS THEREFORE ORDERED that respondents’ motion to dismiss (ECF No. 42) is

GRANTED as follows:
Ground 1 is DISMISSED as procedurally barred.
Ground 2 is DISMISSED as not cognizable in federal habeas.
Ground 4 is DISMISSED as untimely.
IT IS FURTHER ORDERED that respondents will have sixty (60) days from the date
this order is entered within which to file an answer to the remaining claims in the First Amended
Petition.
IT IS FURTHER ORDERED that petitioner will have forty-five (45) days following
service of respondents’ answer in which to file a reply.
IT IS FURTHER ORDERED that the following motions filed by petitioner: motion to
amend the petition (ECF No. 61); motion to transfer petition (ECF No. 62); motion for leave to
file supplement to motion to amend petition (ECF No. 63); and the second motion for leave to
amend the petition (ECF No. 66) are all DENIED.
DATED this 12th day of February, 2018

22

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

23
24
25
26
27

27.

28
7

^2

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 2 of 7

5
'} ■

1

i

IN THE COURT OF APPEALS OF THE STATE OF NEVADA
DOUGLAS HARRY WARENBACK,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 66294

FILED
APR 1 4 2015
K. UNI

ty,

kN

RT

a

'Y CLERK'•7

ORDER OF AFFIRMANCE
This is an appeal from an order of the district court denying a
post-conviction petition for a writ of habeas corpus.1
District Court, Clark County; David B. Barker, Judge.

Eighth Judicial

In his petition hied on May 12, 2014, appellant Douglas
Warenback claimed that he received ineffective assistance of counsel. To
prove ineffective assistance of counsel sufficient to invalidate a judgment
of conviction based on a guilty plea, a petitioner must demonstrate that
his counsel’s performance was deficient in that it fell below an objective
standard of reasonableness, and resulting prejudice such that there is a
reasonable probability that, but for counsel’s errors, petitioner would not
have pleaded guilty and would have insisted on going to trial. Hill v.

o
m

.30
°T1 3 m
o

m

5

"«• 3

S m
8Sc a
o

8

KTT, a«T^i^Peal,haS been submitted for decision without oral argument,
' ^AP 34(f)(3), and we conclude that the record is sufficient for our review
P&191 CM! 11 S(1975) rranted SeeLuckettv91 Nev. 681, 682, 541

3

C-1»-M#7S5-1
L8ACA0
JWJI^-CoiflolAdpsi.Onhr
Count or Amu*
OF
Nevada

5

(O) I FOB

Appendix E

28.
43

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 3 of 7

Lockhart, 474 U.S. 52, 58-59 (1985)\ Kirksey v. State, 112 Nev. 980, 988,
923 P.2d 1102, 1107 (1996).

Both components of the inquiry must be

shown. Strickland v. Washington, 466 U.S. 668, 697 (1984).

We give

deference to the court’s factual findings if supported by substantial
evidence and not clearly erroneous but review the court’s application of
the law to those facts de novo. Lader u. Warden, 121 Nev. 682, 686, 120
P.3d 1164, 1166(2005).
I

First, Warenback claimed that counsel was ineffective for

I

failing to challenge the arrest warrant as invalid. He claimed that he did

I

not make certain statements on voicemail as claimed by the police and

I

some of the statements used were not from voicemail but were actually

I

from text messages and were exculpatory.

Warenback failed to

demonstrate prejudice because he failed to demonstrate that this motion
would have been successful, that the text messages were exculpatory, or
that there was a reasonable probability he would not have pleaded guilty.
Therefore, the district court did not err in denying this claim.
Second, Warenback claimed that counsel was ineffective for
failing to convey his acceptance of a guilty plea agreement. This claim is
belied by the record. Warenback had until a hearing held on May 29,
2013, to accept the plea. At that hearing, counsel, with Warenback sitting
next to him, informed the district court and State that Warenback was
rejecting the offer. Warenback did not speak up at this hearing or refute
this statement; Therefore, the district court did not err in denying this
claim.

Court of apccau
Of

Nevada
(O) IM7B

29.
44

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 4 of 7

■

Third, Warenback claimed that counsel was ineffective for
stating that Warenback would waive all procedural defects when he
pleaded to a fictitious charge.

This claim is belied by the record.

Warenback was thoroughly canvassed regarding the fictitious charge and
counsel waived the procedural defects so that he could plead to the
fictitious charge. Counsel did not waive any other procedural defects.
Therefore, the district court did not err in denying this claim.
Fourth, Warenback claimed that counsel was ineffective for
waiving, without Warenback’s consent, his right to cross-examine the
victim’s mother at sentencing regarding the text messages he sent her and
her statement that he had been previously convicted or committed other
bad acts. Warenback failed to demonstrate that counsel was deficient or
that he was prejudiced. With respect to the text messages, this testimony
did not trigger the limited circumstances under which cross-examination
should be permitted. See Buschauer v. Spate, 106 Nev. 890, 893-94, 804
P.2d 1046, 1048 (1990). With respect to the prior bad acts, Warenback
failed to demonstrate a reasonable probability of a different outcome at
sentencing had counsel cross-examined the victim’s mother regarding the
prior bad acts. We note that the reference to these prior bad acts was only
a small portion of her statement. Therefore, the district court did not err
in denying this claim.
Fifth, Wgrenback claimed that counsel was ineffective for
telling him that he would not be subject to lifetime supervision. This
claim is without merit. Warenback is not subject to lifetime supervision.
Therefore, the district court did not err in denying this claim.

Court otAm**
Nevada
(O) IM7B

30.
45

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 5 of 7

;
•!

Sixth, Warenback claimed that counsel was ineffective for
failing to challenge the district court's statement that it would
sentence
Warenback pursuant to parole and
probation’s recommendation.
Warenback claimed that the district court misstated the recommendation.
This claim is belied by the record. The district court never stated it
was
going to sentence Warenback pursuant to parole and probation’s
recommendation. Therefore, the district court did not err in denying this
claim. \
Seventh, Warenback claimed that counsel was ineffective for
fading to provide him with a copy of the statements the
victim made to
police officers in California. Specifically, he claimed that because he was
unable to read these statements, he was unable to develop empathy for
the victim. The district court stated that one of the reasons he
was
sentencing Warenback harshly was because he did not appear to have
empathy for the victim. Warenback failed to demonstrate that he
was

prejudiced because he failed to demonstrate a reasonable probability of a
different outcome at sentencing had these statements been provided to
him. Therefore, the district court did not err in denying this claim.
Finally, Warenback challenged Nevada’s kidnapping laws and
based on that challenge, he claimed that his conviction constituted cruel
and unusual punishment. This claim fell outside the scope of claims
available to be raised in a post-conviction petition for a writ of habeas
corpus challenging a judgment of conviction entered pursuant to a guilty
Plea. NRS 34.810(l)(a). Therefore, the district court did not err in
denying this claim.

xbwrwApniu
OP.

ttEVftOA
<n IM7B

4

31.
46

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 6 of 7

i
j
i

Having considered Warenback's contentions and concluded
that he is not entitle to relief, we
ORDER the judgment of the district court AFFIRMED.2

C.J.
Gibbons

Tao

J.

J.
Silver

cc:

Hon. David B. Barker, District Judge
Douglas Harry Warenback
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

2We have reviewed all documents that Warenback has submitted to
the clerk of this court in this matter, and we conclude that no relief based
upon those submissions is warranted. To the extent that Warenback has
attempted to present claims or facts in those submissions which were not
previously presented in the proceedings below, we have declined to
consider them in the first instance.

Court of. Appeals .,
Of

Nevada
(0)1*78

5

32.
47

Case 2:15-cv-01789-APG-VCF Document 25-15 Filed 06/27/16 Page 7 of 7

IN THE SUPREME COURT OF THE STATE OF NEVADA
Supreme Court No. 66294
District Court Case No. C286735

DOUGLAS HARRY WARENBACK,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

CLERK’S CERTIFICATE
STATE OF NEVADA, ss.
I, Trade Undeman, the duly appointed and qualified Clerk of the Supreme Court of the
State of Nevada, do hereby certify that the following is a full, true and correct copy of
the Judgment in this matter.
JUDGMENT
The court being fully advised in the premises and the law, it is now ordered, adjudged
and decreed, as follows:.
“ORDER the judgment of the district court AFFIRMED.”
Judgment, as quoted above, entered this 14th day of April, 2015.
IN WITNESS WHEREOF, i have subscribed
my name and affixed the seal of the Supreme
Court at my Office in Carson City, Nevada this
May 11, 2015.
Trade Lindeman, Supreme Court Clerk
By: Amanda Ingersoll
Chief Deputy Clerk

:< .

33.
i
48

Case 2:15-cv-01789-APG-VCF Document 26-26 Filed 06/27/16 Page 2 of 5

IN THE COURT OF APPEALS OF THE STATE OF NEVADA
DOUGLAS HARRY WARENBACK,
Appellant,

No. 69536

FILED

vs.

THE STATE OF NEVADA,
Respondent.

MAY 1 8 2016
TRACIE K. LINDEMAN
CIERKOFSUPREME COURT
■V S-Y/VOaiADEPUTY CLERK (J

ORDER OFAFFIRMANCE
This is an appeal from an order of the district court denying a
postconviction petition for a writ of habeas corpus.1

Eighth Judicial

District Court, Clark County; William D. Kephart, Judge.
Appellant Douglas Harry Warenback filed his petition on
September 14, 2015, more than one year after entry of the judgment of
conviction on December 17, 2013.2

Thus, Warenback’s petition was

untimely filed. See NRS 34.726(1). Moreover, Warenback’s petition was
successive because he had previously filed a postconviction petition for a
writ of habeas corpus and the prior petition was denied on the merits.3
See NRS 34.810(2). Warenback’s petition was procedurally barred absent
a demonstration of good cause and actual prejudice. See NRS 34.726(1);
NRS 34.810(3).
1This appeal has been submitted for decision without oral argument.
NRAP 34(f)(3).
2No direct appeal was taken.
3 Warenback v. State, Docket No. 66294 (Order of Affirmance, April
14, 2015).

Appendix F

34.

Court of Appeals
OF

Nevada
(0) 194TB

IU -OiOOloM

49

Case 2:15-cv-01789-APG-VCF Document 26-26 Filed 06/27/16 Page 3 of 5

Warenback first argues the district court erred in concluding
there was no external impediment to excuse his delay in raising a claim
regarding discrepancies in transcripts involving his recorded message to
the victim’s mother.

Warenback asserts he recently discovered the

discrepancies during review of the transcript of his sentencing hearing
and did not raise it earlier due to confusion regarding the postconviction
process. Warenback fails to demonstrate he is entitled to relief.
Warenback’s underlying claim was reasonably available to be
raised at an earlier time, and therefore, Warenback fails to demonstrate
an impediment external to the defense provided good cause to overcome
the procedural bars. See Hathaway v. State, 119 Nev. 248, 252, 71 P.3d
503, 506 (2003).

Moreover, Warenback’s confusion regarding the

postconviction proceedings does not constitute an impediment external to
the defense that prevented him from raising this claim at an earlier time. .
See Phelps v. Dir., Nev. Dep’t of Prisons, 104 Nev. 656, 660, 764 P.2d 1303,
1306 (1988) (holding that petitioner’s claim of organic brain damage,
borderline mental retardation and reliance on assistance of inmate law
clerk unschooled in the law did not constitute good cause for the filing of a
successive post-conviction petition).
Next, Warenback argues the State waived application of the
procedural bars because it filed an untimely opposition to Warenback’s
petition. “Application of the statutory procedural default niles to post­
conviction habeas petitions is mandatory.” State v. Eighth Judicial Di$t.
Court (Riker), .121 Nev. 225, 231, 112 P.3d 1070, 1074 (2006). In addition,
a petitioner has the burden of pleading and proving facts to demonstrate
good cause to excuse the delay. State v. Haberstroh, 119 Nev. 173, 181, 69
P.3d 676, 681 (2003). As application of the procedural bars is mandatory
and Warenback had the burden of demonstrating good cause, he fails to
Court or Appeals
OF

Ndmoa
(0) 1947B

2

35.
50

| Case 2:15-cv-01789-APG-VCF Document 26-26 Filed 06/27/16 Page 4 of 5

demonstrate that the district court should have waived the procedural
bars due to an untimely opposition from the State. Therefore, the district
court did not err in denying the petition as procedurally barred.
Finally, Warenback argues the district court erred by adopting
the State’s proposed order denying his petition.

Warenback does not

identify any legal reason why the district court should not have adopted
the proposed draft order. Moreover, Warenback does not demonstrate the
adoption of the proposed order adversely affected the outcome of the
proceedings or his ability to seek full appellate review. Therefore,
Warenback is not entitled to relief based on this argument.
Having concluded Warenback is not entitled to relief, we
ORDER the judgment of the district court AFFIRMED.4

,

C.J.

,

J-

,

J.

Gibbons v

Tao

Silver

4We have reviewed all documents Warenback has submitted in this
matter, and we conclude no relief based upon those submissions is
warranted. To the extent Warenback has attempted to present claims or
facts in those submissions which were not previously presented in the
proceedings below, we decline to consider them in the first instance.

36

Court of Appeals
of

Nevada
(O) 1947R

3
51

Case 2:15-cv-01789-APG-VCF Document 26-26 Filed 06/27/16 Page 5 of 5

cc:

Court of Appeals
or
Nevada
(0) 19*7&

Hon. William D. Kephart, District Judge
Douglas Harry Warenback
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

37.
4
52

The filed version of this order was handwritten in ecf 61
IN THE COURT OF APPEALS OF THE STATE OF NEVADA

DOUGLAS HARRY WARENBACK,
Appellant,

No. 71902

vs.

THE STATE OF NEVADA,
Respondent.

JUL 1 2 2017
Br—

ORDER OF AFFIRMANCE
Douglas Harry Warenback appeals from an order of the
district court denying a motion to correct an illegal sentence.1

Eighth

Judicial District Court, Clark County; William D. Kephart, Judge.
In his motion filed on October 4, 2016, Warenback claimed
that his sentence was illegal,

Warenback asserted his judgment of

conviction contained a typographical error as it stated he committed
pandering of a child pursuant to “NRS 201.300(a),” but the statute did not
actually contain such a subsection. Warenback claimed the error in the
judgment of conviction meant his crime was not actually covered under
the statute requiring sex offender registration and therefore, the district
court improperly imposed a sentence requiring him to register as a sex
offender upon his release from custody. Warenback failed to demonstrate
his sentence was facially illegal or the district court lacked jurisdiction.
See Edwards v. State, 112 Nev. 704, 708, 918 P.2d 321, 324 (1996).

iThis appeal has been submitted for decision without oral argument.
NRAP 34(f)(3).

Appendix G

38.

Court of Appeals
of

Nevada

53

When Warenback committed his offense, NRS Chapter 179D
required persons convicted of crimes involving a child, including an
“offense involving pandering Or prostitution pursuant to NRS 201.300 to
201.340, inclusive,” to register as sex offenders following release from
custody. See 2007 Nev. Stat., ch. 16, § 16(3), at 2757 (former version of
NRS 179D.0357); see also 1997 Nev. Stat., ch. 137, § 2, at 295-96 (former
version of NRS

201.300).

As Warenback’s offense was clearly

encompassed by that provision, he did not demonstrate the typographical
error in the judgment of conviction deprived the district court of the
authority to order Warenback to register as a sex offender. Therefore, we
conclude the district court did not err in denying Warenback’s motion.
Accordingly, we
ORDER the judgment of the district court AFFIRMED.2

, C.J.
Silver

, J-

, J-

Gibbons ^

Tao

2We note the district court can correct a clerical error at any time,
see NRS 176.565, and therefore, it should correct the clerical error in the
judgment of conviction by entering a corrected judgment of conviction
specifying NRS 201.300 as the statute identifying Warenback’s crime.

39.

Court of Appeals
of

2

Nevaoa
(O) 1SM7R

jgso

54

cc:

Hon. William D. Kephart, District Judge
Douglas Harry Warenback
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

40
Court of Appeals
OF

Nevada
iO) I9J70

3

55

Case 2:15-cv-01789-APG-VCF Document 72-1 Filed 04/10/18 Page 2 of 4

IN THE COURT OF APPEALS OF THE STATE OF NEVADA
DOUGLAS HARRY WARENBACK,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 73381

FILED
FEB 1 3 2018
OF

A.BRO
CLERK

ORDER OF AFFIRMANCE
Douglas Harry Warenback appeals from an order of the district
court denying a postconviction petition for a writ of habeas corpus.1 Eighth
Judicial District Court, Clark County; William D. Kephart, Judge.
Warenback filed his petition on March 21, 2017, more than
three years after entry of the judgment of conviction on December 17, 2013.
Thus, Warenback’s petition was untimely filed.

See NRS 34.726(1).

Moreover, Warenback’s petition was successive because he had previously
filed several postconviction petitions for a writ of habeas corpus, and it
constituted an abuse of the writ as he raised claims new and different from
those raised in his previous petitions.2 See NRS 34.810(2). Warenback’s
petition was procedurally barred absent a demonstration of good cause and
actual prejudice. See NRS 34.726(1); NRS 34.810(3).

^his appeal has been submitted for decision without oral argument.
NRAP 34(f)(3).
2Warenback v. State, Docket No. 72280 (Order of Affirmance, July 12,
2017); Warenback v. State, Docket No. 71056 (Order of Affirmance, March
23, 2017); Warenback v. State, 69536 (Order of Affirmance, May 18, 2016);
Warenback u. State, Docket No. 66294 (Order of Affirmance, April 14, 2015).
Court of Appeals
op

Nevada

Appendix H

41.
if* <)0O7A>3 56

Case 2:15-cv-01789-APG-VCF Document 72-1 Filed 04/10/18 Page 3 of 4

Warenback claimed he had good cause because he recently
discovered the victim in this matter was the subject of juvenile court
proceedings and information from those proceedings may have impacted his
criminal matter. Warenback’s initial trial-level counsel filed a motion to
withdraw due to a conflict in the district court on December 3, 2012. The
motion listed the juvenile court case number, asserted the conflict arose
because the public defender’s office represented the victim in that matter,
and requested the appointment of substitute counsel for Warenback. The
district court granted the motion and appointed substitute counsel.
Warenback’s good-cause claim is based upon information
contained in his case file and available since 2012. Warenback’s failure to
realize the significance of the juvenile court proceedings did not constitute
an impediment external to the defense that prevented him from raising
claims utilizing that information in a timely petition.

See Brown v.

McDaniel, 130 Nev. 565, 569, 331 P.3d 867, 870 (2014). Therefore, the
district court properly denied the petition as procedurally barred.
Next, Warenback argues the district court erred in referring
him to the Nevada Department of Corrections (NDOC) for the forfeiture of
credits. The State moved for an order referring Warenback to the NDOC
for forfeiture of credits and Warenback opposed the motion. The district
court found Warenback has filed 30 motions or petitions, including the
instant petition, in the district court since 2014, those petitions or motions
were “meritless, barred, and frivolous,” and Warenback filed the documents
in bad faith.
NRS 209.451(l)(d)(l) permits the forfeiture of an offender’s
credits if the offender filed documents in court “for the purpose of harassing
the offender’s opponent, causing unnecessary delay in the litigation or

42.

Court of Appeals

or
Nevada
(OJ 1M7B

2

57

Case 2:15-cv-01789-APG-VCF Document 72-1 Filed 04/10/18 Page 4 of 4

increasing the cost of the litigation.” The Nevada Supreme Court has noted
referral to the NDOC for the forfeiture of credits is an available sanction
when an inmate litigant has submitted abusive court filings. See Jones v.
Eighth Judicial Dist. Court, 130 Nev. 493, 500, 330 P.3d 475, 480 (2014).
Given the district court’s findings regarding Warenback’s petitions and
motions, as well as the record before this court, we conclude the district
court did not err in referring Warenback to the NDOC for the forfeiture of
credits. Accordingly, we
ORDER the judgment of the district court AFFIRMED.3

,

C.J.

Silver
JTao
,

J.

Gibbons
cc:

Hon. William D. Kephart, District Judge
Douglas Harry Warenback
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

3We grant Warenback’s motion requesting we consider the petition
and supplements he filed in Docket No. 73383, and have considered those
documents in our disposition of this matter. We deny any other relief sought
in that motion and deny Warenback’s motion requesting leave to file a
second informal brief.
Court of Appeals
OF
Nevada
(O) I947B

43
3

58

Additional material
from this filing is
available in the
Clerk's Office.

